No. ________
IN THE

Supreme Court of the United States
________________
SEANTREY MORRIS,
Petitioner,
v.
JOSEPH MEKDESSIE, BRANDON LEBLANC; DANIEL SWEARS; ARTHUR S. LAWSON, IN HIS
OFFICIAL CAPACITY AS CHIEF OF POLICE, CITY OF GRETNA POLICE DEPARTMENT;
GRETNA CITY,
Respondents.
CERTIFICATE OF SERVICE OF APPLICATION FOR AN EXTENSION OF
TIME WITHIN WHICH TO FILE A PETITION FOR A WRIT OF
CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT

I, Eric A. Shumsky, hereby certify that on this 27th day of June 2019, one
copy of the Application for an Extension of Time Within Which to File a Petition for
Writ of Certiorari to the United States Court of Appeals for the Fifth Circuit was
sent via U.S. mail, and via email, to:
Leonard L. Levenson
Christian Wayne Helmke
Leonard L. Levenson & Associates
424 Gravier Street, First Floor
New Orleans, LA 70130
lenlawyer@aol.com
cwhelmke@gmail.com
Counsel for Joseph Mekdessie, Brandon LeBlanc,
Arthur Lawson and the City of Gretna
James Bryan Mullaly
Mullaly & Associates
631 St. Charles Avenue

New Orleans, LA 70130
mulljtc@gmail.com
Counsel for Daniel Swears
All parties required to be served have been served.
Respectfully submitted,
s/ Eric A. Shumsky
Eric A. Shumsky
Counsel of Record
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15th Street, N.W.
Washington, D.C. 20005
(202) 339-8400
eshumsky@orrick.com

